March 20, 2008

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

GEORGE W. WRIGHT
VICE PRESIDENT, INFORMATION TECHNOLOGY OPERATIONS

SUBJECT: Audit Report – Fiscal Year 2007 Postal Service Financial Statements
         Audit – San Mateo Information Technology and Accounting Service Center
         (Report Number FT-AR-08-009)

This report presents the results of our audit of the financial activities and accounting
records at the U.S. Postal Service Information Technology and Accounting Service
Center (IT/ASC) in San Mateo, California, for the fiscal year (FY) ended September 30,
2007 (Project Number 07BM004FT000). The Postal Reorganization Act of 1970, as
amended, requires annual audits of the Postal Service’s financial statements. We
conducted this audit in support of the independent public accounting (IPA) firm’s overall
audit opinion on the Postal Service’s financial statements. Refer to Appendix A for
additional information about this audit.

OVERALL AUDIT CONCLUSION

   •   Financial accounting policies and procedures provided for an adequate internal
       control structure and complied with accounting principles generally accepted in
       the U.S.
   •   Accounting transactions at the San Mateo IT/ASC impacting the general ledger
       account balances were stated in accordance with accounting principles generally
       accepted in the U.S.
   •   General ledger account balances conformed to the general classification of
       accounts on a basis consistent with that of the previous year.
   •   The Postal Service complied with laws and regulations that have a direct and
       material effect on the financial statements.
   •   Control deficiencies regarding the enterprise Imaging Workflow System (eIWS),
       management of accounts receivable and recurring services contract payments
       were identified. These items were not significant to the financial statements and
       did not affect the overall adequacy of internal controls.
   •   Refer to Appendix F for a summary of monetary and non-monetary impact.
Fiscal Year 2007 Postal Service Financial Statements Audit –               FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center



eIWS PROCESSING CONTROL

The Postal Service did not always pay invoiced amounts processed through eIWS
correctly. Specifically, when the form used to process the invoices included
discrepancies, eIWS processed the transactions without correction. Personnel at field
units requesting payments for goods and services enter the total amount to be paid in
the “Invoice Gross Amount” field on Postal Service (PS) Form 8230, Authorization for
Payment.1 They must also distribute the total amount to one or more general ledger
accounts and finance numbers. eIWS was programmed to pay the gross amounts
entered on the forms. eIWS recognized when the total of the distributed amounts did
not equal the invoice gross amount. However, it simply replaced the gross amount with
the total distributed amount and processed the invoice.

Criteria

Controls should be designed to help ensure the accuracy of transactions during
processing.

Cause

eIWS was not programmed to set aside for manual review those invoices with
differences between the invoice gross amount and the distributed total. Instead, the
system processed the invoices using the distributed total as the amount to be paid.

Effect

      •    From July 19, 2004, through August 1, 2007, the Postal Service processed 3,446
           invoices (totaling $1,103,633) on which eIWS identified errors between the
           invoice gross amounts and the distributed totals. The Postal Service overpaid
           $150,839 on 648 invoices and underpaid $100,815 on 704 invoices. They paid
           the remaining invoices correctly.2
      •    If this issue had gone undetected, we project the Postal Service would have
           processed net overpayments of $32,850 over the next 2 years. Please refer to
           Appendix C for our calculation of projected overpayments.




1
    Refer to Appendix B for a copy of the form.
2
    Two invoices were cancelled prior to payment.




                                                    2
Fiscal Year 2007 Postal Service Financial Statements Audit –              FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center



Corrective Action

   •    When brought to their attention, the Postal Service modified eIWS. As of
        August 2, 2007, eIWS sets aside invoices with differences between the gross
        and distributed amounts for further review and correction prior to payment.
        Accordingly, we are not making any recommendations.
   •    We will report the net overpayment of $50,024 as monetary impact, recoverable
        questioned costs, and the projected overpayments of $32,850 as monetary
        impact, funds put to better use, in our Semiannual Report to Congress. In
        addition, because a control was not in place to prevent payment of invoices
        where discrepancies existed, we will report $1,053,609 as non-monetary impact,
        assets at risk, in our Semiannual Report to Congress, for those invoices with
        discrepancies that were paid correctly.

MANAGING ACCOUNTS RECEIVABLE

The San Mateo IT/ASC did not manage all accounts receivable for which it was
responsible. Specifically, we identified 34 of 17,976 accounts receivable over 30 days
old, valued at $81,614, where San Mateo IT/ASC personnel did not review the accounts
to ensure payments were being made.

Criteria

   •    Handbook F-20A, Accounting Service Center Accounting Guidelines, dated May
        1999, with updates through October 10, 2001.
   •    Handbook F-16, Accounts Receivable, dated February 1990.

Cause

   •    San Mateo IT/ASC personnel did not enter customer payment plan information in
        the Oracle Accounts Receivable System (OARS) for the 34 accounts receivable
        identified. Further, when payment plan information is not entered into OARS, the
        Payment Plan Reports do not include the accounts receivable.
   •    The Past Due Report, used to manage the accounts receivable, does not include
        account status or payment information.




                                                  3
Fiscal Year 2007 Postal Service Financial Statements Audit –                 FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center


Effect

      •    For 23 of the 34 accounts valued at $60,906, no payments were received for 30
           or more days.3
      •    Our expanded analysis, to consider accounts receivable with payments made
           within 60 days, showed payment plans were established for four of the 34
           accounts receivable within 60 days. The remaining 30 accounts receivable,
           valued at $73,371, did not have customer payment plan information entered into
           OARS and no payments were received on 14, valued at $32,509, for 60 or more
           days.

Corrective Action

      •    After we brought this issue to management’s attention, they reiterated to
           applicable IT/ASC personnel the importance of entering all customer payment
           plan information into OARS.
      •    As of November 28, 2007, all 34 accounts were either paid in full, written off,
           forwarded for collection, or monitored (customer payment plan information was
           entered in OARS).
      •    We will report $81,614 as non-monetary impact, assets at risk, in our Semiannual
           Report to Congress. Please refer to Appendix D for our detailed analysis of this
           issue.

Recommendation

We recommend the Vice President, Controller, in coordination with the Vice President,
Information Technology Operations:

      1. Modify the Past Due Report to include the account status and payment activity
         information.




3
    As of June 22, 2007.




                                                  4
Fiscal Year 2007 Postal Service Financial Statements Audit –                                        FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center


RECURRING SERVICES CONTRACT PAYMENTS

The Postal Service did not always make recurring service contract payments in a timely
manner. Specifically, we tested payments related to 22 recurring services contracts and
found:

        • 12 contracts where the initial payments were between 16 and 167 days late.
        • 17 instances where subsequent payments on those same contracts were also
          late.4

Criteria

Management Instruction FM-610-2000-2, Compliance with the Prompt Payment Act,
dated March 7, 2000.

Cause

We did not expand our procedures to determine the exact cause for each late payment.
However:

       •   In one instance, the San Mateo IT/ASC did not receive the local agreement from
           the field site until 30 days after the contract began.
       •   In three instances, Category Management Center (CMC) personnel did not enter
           newly created contract information timely to the Contract Authoring and
           Management System (CAMS).
       •   In eight instances, the San Mateo IT/ASC did not receive contract renewal
           information from the CMCs timely.5

Effect

       •   When payments are not made timely, there is increased risk that contractors may
           not be willing to contract with the Postal Service in the future, may not provide
           timely or adequate services, or may refuse to perform work.
       •   Management demonstrated that both the number of transactions requiring
           Prompt Payment Act (PPA) interest payments and PPA amounts paid was less in
           the first quarter of FY 2008 compared to the same period in FY 2007.




4
    Total number of recurring services contracts was 12,323 as of September 30, 2007.
5
    We did not determine the exact timeframes the CMCs received contract information from the field sites.




                                                            5
Fiscal Year 2007 Postal Service Financial Statements Audit –                                FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center



Prior Action

  Prior to the start of our fieldwork (in January 2007), the San Mateo IT/ASC began
  sending out reminder letters to the field sites 90 days prior to the expiration of the
  recurring services contracts.

Corrective Action

  As a result of a separate U.S. Postal Service Office of Inspector General (OIG)
  report,6 management agreed to establish procedures to reissue old contracts in CAMS
  with new contract award numbers at the time of renewal, modification, or change.
  This will ensure contract information interfaces with the Accounts Payable Excellence
  (APEX) system for payment. Refer to Appendix E for our detailed analysis of this
  issue.

Recommendation

We recommend the Vice President, Controller:

    2. Coordinate with the Vice President, Supply Management, to reiterate to Category
       Management Center and field site personnel the importance of providing both
       recurring services contract and local agreement information to the San Mateo
       Information Technology and Accounting Service Center in time to avoid Prompt
       Payment Act interest payments.

PROGRESS ON PRIOR YEARS’ RECOMMENDATIONS

We followed up on prior years’ recommendations related to our financial statements
audits at the San Mateo IT/ASC.

Accurate Calculation of Prompt Payment Act Interest

The Postal Service calculated PPA interest on invoices paid via electronic funds
transfers using the date the electronic payment file was transmitted from the San Mateo
IT/ASC to the Eagan IT/ASC.7 Although the Eagan IT/ASC transmitted the file to the
Federal Reserve Bank that same day, no funds were transferred to vendors’ accounts
on that day. As a result, Postal Service PPA interest payments did not include 1 full day
of interest owed. We recommended the Postal Service revise the method for
calculating PPA interest on late electronic funds transfer payments by using the U.S.
Code of Federal Regulations settlement date.

6
  Application Control Review of Oracle Accounts Payable – Feeder Systems (Report Number IS-AR-07-014(R), dated
August 9, 2007).
7
  Fiscal Year 2006 Postal Service Financial Statement Audit – San Mateo Information Technology and Accounting
Service Center (Report Number FT-AR-07-010, dated March 26, 2007).




                                                      6
Fiscal Year 2007 Postal Service Financial Statements Audit –                                 FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center



Progress

The Postal Service revised the method for calculating PPA interest on late electronic
funds transfer payments and currently uses the U.S. Code of Federal Regulations
settlement date.

Audit Comment

This recommendation was closed through the formal closeout process on July 26, 2007.

Semiannual Capital Property Reviews

In FY 2004, management implemented our recommendation to advise personnel to
conduct semiannual capital property record reviews.8 However, in FYs 2005 and 2006,
the condition continued to exist. As a result, management may not have been timely
accounting for additions, disposals, or obsolescence. We recommended management
direct material accountability officers (MAO) to conduct semiannual capital property
record reviews.

Progress

In August 2007, management issued an email to district managers reminding them of
the requirement to conduct semiannual capital property record reviews and requested
they forward it to installation heads and MAOs.

Audit Comment

During FY 2007, we tested 75 sites for property existence and semiannual capital
property reviews and found:

        •   Semiannual reviews were not performed at 31 of the 75 sites.

        •   We were unable to locate 14 property items at three sites.

        •   Personnel were not always aware of their responsibility to perform
            semiannual reviews.




8
 Fiscal Year 2003 Postal Service Financial Statement Audit – San Mateo Information Technology and Accounting
Service Center (Report Number FT-AR-04-008, dated February 24, 2004).




                                                       7
Fiscal Year 2007 Postal Service Financial Statements Audit –              FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center



   •   Because the reminders were sent in August, we could not fully evaluate the
       effect of management’s actions. Therefore, we are not making any
       recommendations at this time. We will continue to monitor this area as part of
       our annual financial statements audit work.

   •   During FY 2007, the Postal Service performed a 5-year inventory survey on
       personal property equipment. Based on those results, the Board of Governors’
       IPA concluded that although only an insignificant amount of property could not be
       located, the process was very cumbersome and labor-intensive. Coupled with
       the OIG’s findings, the IPA indicated control processes are not functioning as
       management intended. They recommended management refine its capital
       equipment inventory process and re-design its control processes, and projected
       an approximate $40 million overstatement in the Postal Service’s financial
       records.

Management’s Comments

Management agreed with the recommendations. On February 11, 2008, the San Mateo
IT/ASC submitted a software change request to modify the Past Due Invoice Report to
indicate the status of past due invoices, including both account payment and activity
status. For recurring services contract payments, the ASCs will continue to send
reminder letters to field sites 90 days prior to the expiration of local cleaning
agreements. The Vice President, Supply Management, will ensure the next update to
the Administrative Support Manual (ASM) includes a requirement that ASCs receive
renewal agreements 15 working days prior to the term expiration date. The planned
effective date of the ASM update is October 1, 2008. Finally, by March 30, 2008,
management will update the Cleaning Services Local Buying Agreement Guidelines
with that same requirement. We have included management’s comments, in their
entirety, in Appendix G.

Management’s comments did not address monetary or non-monetary impact. However,
in separate communication on March 17, 2008, management stated they agreed with all
monetary impact.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report and the corrective actions should resolve the issues.

We will report $82,874 of monetary impact — including $50,024 of recoverable
questioned costs and $32,850 of funds put to better use — and $1,135,223 of non-
monetary impact, assets at risk, in our Semiannual Report to Congress.




                                                  8
Fiscal Year 2007 Postal Service Financial Statements Audit –            FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, Director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc:    H. Glen Walker
       Susan M. Brownell
       Vincent H. DeVito, Jr.
       Jo Ann E. Mitchell
       Stephen J. Nickerson
       William A. Cole
       Katherine S. Banks




                                                  9
Fiscal Year 2007 Postal Service Financial Statements Audit –                                      FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The San Mateo IT/ASC includes one of three accounting service centers Postal
Service-wide.9 It is a large, centralized accounting and disbursement center
responsible for accounts payable,10 centralized postage payments,11 capital personal
property, motor vehicles, and supply inventory.

We will issue separate financial statement audit reports for headquarters and the Eagan
and St. Louis IT/ASCs. Further, in addition to the overall opinion on the Postal Service’s
financial statements, the Board of Governors’ IPA, contracted to express an opinion on
the financial statements, will issue separate reports on the Postal Service’s internal
controls and compliance with laws and regulations. The OIG will also issue a separate
report for the audit of the FY 2007 information system controls at the Eagan, Minnesota;
San Mateo, California; and St. Louis, Missouri IT/ASCs; and the Raleigh, North Carolina
Information Technology Service Center.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine whether:

•    The financial accounting policies and procedures provide for an adequate internal
     control structure and comply with accounting principles generally accepted in the
     U.S.

•    Accounting transactions at the San Mateo IT/ASC impacting the general ledger
     account balances for assets, liabilities, equity, income, and expenses of the Postal
     Service are fairly stated in accordance with accounting principles generally accepted
     in the U.S.

•    General ledger account balances conform to the general classification of accounts of
     the Postal Service on a basis consistent with that of the previous year.

•    The Postal Service complies with laws and regulations that have a material and
     direct effect on the financial statements as a whole.

To accomplish our objectives, we conducted fieldwork from November 2006 through
February 2008. As part of our audit, we assessed internal controls, tested transactions,

9
  The others are in IT/ASCs located in Eagan, Minnesota, and St. Louis, Missouri.
10
   Includes accounting for motor vehicle supply parts and services, bulk fuel inventory purchases, miscellaneous
disbursements, commercial credit cards, relocation, and headquarters and field payables.
11
   The Centralized Account Processing System is an electronic postage payment system that provides business
mailers a way to pay postage at multiple post offices through a centralized account.




                                                         10
Fiscal Year 2007 Postal Service Financial Statements Audit –                FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center


and verified account balances. We conducted this audit from November 2006 through
March 2008 in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient audit
evidence to limit audit risk to a low level that is, in our professional judgment,
appropriate for supporting the overall audit opinion on the financial statements. Those
standards also require considering the results of previous engagements and following
up on known significant findings and recommendations that directly relate to the
objectives of the audit.

An audit also includes obtaining a sufficient understanding of internal control to plan the
audit and to determine the nature, timing, and extent of audit procedures to be
performed. We supported the external auditors in obtaining reasonable assurance
about whether the financial statements are free of material misstatement (whether
caused by error or fraud). Absolute assurance is not attainable because of the nature of
audit evidence and the characteristics of fraud. Therefore, an audit conducted in
accordance with generally accepted auditing standards may not detect a material
misstatement. However, the external auditors and the OIG are responsible for ensuring
that appropriate Postal Service officials are aware of any significant deficiencies that
come to our attention. We discussed our observations and conclusions with
management officials on February 22, 2007, and included their comments where
appropriate.

We relied on computer-generated data from several Postal Service financial systems,
including Accounting Data Mart, APEX, Centralized Account Processing System,
Vehicle Management and Accounting System, Material Distribution/Inventory
Management System, eIWS, and Property and Equipment Accounting System. We
performed specific internal control and transaction tests on these systems’ data, to
include tracing selected financial information to supporting source records. For
example, we verified that payments recorded in APEX were supported by certified
invoices and the amounts were properly applied to the appropriate general ledger
accounts.




                                                 11
Fiscal Year 2007 Postal Service Financial Statements Audit –                      FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center


PRIOR AUDIT COVERAGE

           Report Title              Report Number       Final Report Date         Results
 Fiscal Year 2006 Postal             FT-AR-07-010         March 26, 2007     Semiannual capital
 Service Financial Statements                                                property reviews not
 Audit – San Mateo Information                                               performed at 51 of
 Technology and Accounting                                                   80 sites.
 Service Center
 Fiscal Year 2005 Postal             FT-AR-06-010        January 26, 2006    Semiannual capital
 Service Financial Statement                                                 property reviews not
 Audit – San Mateo Information                                               performed at 15 of
 Technology and Accounting                                                   26 sites.
 Service Center
 Fiscal Year 2004 Postal             FT-AR-05-007        January 12, 2005    Management
 Service Financial Statement                                                 reemphasized the
 Audit – San Mateo Information                                               requirements to
 Technology and Accounting                                                   perform capital
 Service Center                                                              property reviews.


Refer to the Progress on Prior Years’ Recommendations section of this report for
details of these issues.




                                                 12
Fiscal Year 2007 Postal Service Financial Statements Audit –      FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center



           APPENDIX B: PS FORM 8230, AUTHORIZATION FOR PAYMENT




                                                 13
Fiscal Year 2007 Postal Service Financial Statements Audit –            FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center


             APPENDIX C: ENTERPRISE IMAGING WORKFLOW SYSTEM
                         PROJECTED OVERPAYMENTS

If the issue had gone undetected, we project the Postal Service would have overpaid
$32,850 over a 2-year period as follows:


                Actual Net Overpayments                           $50,024

                ÷ Number of Days
                  (July 19, 2004 through August 1, 2007)            1,109

                = Overpaid Amounts per Day (Rounded)                 $45

                X Number of Days Projected (2 Years)                 730

                = Projected Net Overpayments                      $32,850




                                                 14
Fiscal Year 2007 Postal Service Financial Statements Audit –                                    FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center



                    APPENDIX D: MANAGING ACCOUNTS RECEIVABLE

The San Mateo IT/ASC did not manage all accounts receivable for which it was
responsible. Specifically, we identified 34 accounts receivable over 30 days old
(valued at $81,614) where San Mateo IT/ASC personnel did not review the accounts to
ensure payments were being made.

The San Mateo IT/ASC manages accounts receivable established for items included in
five general ledger accounts.12 The accounts receivable include, but are not limited to,
erroneous payments to vendors or on money orders, damages to vehicles and property,
monies owed from government agencies, contracted services,13 uniform allowance
vendors,14 Customer Claims Response System (CCRS),15 and electronic Address
Change Services (ACS).16 As of November 6, 2007, the San Mateo IT/ASC was
responsible for managing 17,976 accounts receivable valued at $20.8 million.

San Mateo IT/ASC personnel establish payment plans and enter customer information17
into OARS based on payments received or debtor actions prompting payment plan
updates.18 They also advised their procedures include reviewing the status of each
receivable at least monthly.

Further, they informed us the San Mateo IT/ASC uses the Past Due Report and
Payment Plan Report, both generated from OARS, to manage accounts receivable.
The Past Due Report includes all of the accounts receivable that are more than 30 days
old. Personnel use the Past Due Report to randomly select accounts receivable with
high current balances for review and to identify for review the lowest balance accounts
receivable.19 For selected high balance accounts receivable, they then query the
Payment Plan Report and OARS to determine whether the status is current, including
whether accounts are in collections,20 on payment plans, in dispute, or on hold; and
whether debtors are paying as required. For low balance accounts receivable,
personnel query OARS and review the account information to determine whether or not


12
   13190 Miscellaneous, 13470 Motor Vehicle Accidents Receivable, 13475 Property Damage Receivable, 13480
Money Order Customers Receivable, and 13490 Miscellaneous Receivables.
13
   Funds owed by Contract Postal Units.
14
   Rebates that vendors who sold Postal Service uniforms owe.
15
   The system which enables Postal Service employees to process domestic indemnity claims received from
customers when Insured Mail articles are lost or damaged in the mail. CCRS receivables arise when the Postal
Service finds lost items on which it paid claims and subsequently provides the items to the customers.
16
   ACS is a service the Postal Service provides customers for address corrections/updates. The receivable results
when customers who subscribe to and receive the service are billed for that service.
17
   The information entered includes account notes, payment plan period (payment frequency), payment plan amount
(amounts paid at each period), and payment plan start date.
18
   Debtor actions prompting payment plan updates can be formal, implied, or verbal; and include memoranda of
agreements and phone conversations.
19
   The San Mateo IT/ASC did not establish thresholds for determining high balance and low balance cutoffs.
20
   This includes forwarding to Cross Servicing at the Eagan IT/ASC, which issues dunning notices to delinquent
debtors and referrals to the Department of Treasury Debt Management Services.




                                                        15
Fiscal Year 2007 Postal Service Financial Statements Audit –                                 FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center


to write-off the accounts receivable.21 Personnel use the Payment Plan Report because
the Past Due Report does not include account status or payment information. Only the
Payment Plan Report includes the latest payment information for those accounts
receivable where payment plan information exists in OARS. When payment plan
information does not exist in OARS, those accounts receivable are not included in the
Payment Plan Report.

Postal Service policy22 requires ASCs to manage accounts receivable and states that
accounts receivable not paid within 30 days are considered delinquent. Postal Service
policy also requires the accounts receivable unit managers to establish and maintain
accounting control over accounts receivable, and to demand payments from the debtors
who owe money to the Postal Service.23 Further, management of accounts receivable
includes monitoring account status and activity.

This occurred because San Mateo IT/ASC personnel did not enter customer payment
plan information in OARS for the 34 accounts receivable identified. When payment plan
information was not entered to OARS, the Payment Plan Report did not include the
accounts receivable. Also, the Past Due Report that is used to manage accounts
receivable did not include account status or payment information.

As a result, for 23 of the 34 accounts valued at $60,906, no payments were received for
30 or more days.24 Also, when accounts receivable are not adequately monitored, there
is increased risk the Postal Service may never collect the receivable.

To account for the timing of payments, we expanded our analysis to consider accounts
receivable with payments made within 60 days.25 In that scenario, payment plans were
established for four of the 34 accounts receivable within 60 days. The remaining 30
accounts receivable, valued at $73,371, did not have customer payment plan
information entered into OARS and no payments were received on 14, valued at
$32,509, for 60 or more days.

As of November 28, 2007, all 34 accounts receivable were either paid in full, written off,
forwarded for collection action, or monitored (customer payment plan information was
entered in OARS).




21
   If the balance relates to finance charges, the San Mateo IT/ASC evaluates the account receivable to determine
whether or not to write-off the amount.
22
   Handbook F-20A, Accounting Service Center Accounting Guidelines.
23
   Handbook F-16, Accounts Receivable.
24
   As of June 22, 2007.
25
   For example, one debtor made multiple payments in previous months, thus was ahead of their payment plan
requirements. However, they had not made a payment within 30 days of June 22, 2007, the date of the payment plan
report reviewed.




                                                      16
Fiscal Year 2007 Postal Service Financial Statements Audit –                 FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center


              APPENDIX E: RECURRING SERVICES CONTRACT PAYMENTS

The Postal Service did not always make recurring service contract payments in a timely
manner. Specifically, we tested payments related to 22 recurring services contracts and
found:

      •   12 contracts where initial payments were between 16 and 167 days late.
      •   17 instances where subsequent payments on those same contracts were also
          late.

There are three basic methods to initiate or renew recurring services contracts and
related payments:

      •   Postmasters at field sites send local agreements directly to the San Mateo
          IT/ASC where the information is entered into APEX for payment.
      •   CMC personnel enter information for contracts established after May 2006 into
          the CAMS. This information interfaces directly with APEX for payment.
      •   CMC personnel enter renewal information into CAMS for contracts established
          prior to May 2006, because these contracts were not initially established in
          CAMS and, therefore, there is no interface with APEX. CMC personnel then
          forward the information to the San Mateo IT/ASC where the renewal information
          is entered into APEX for payment.

Best practices call for timely payments. Also, Postal Service policy26 states that
suppliers are entitled to interest when the Postal Service does not pay a supplier’s
invoice on or before the due date.

Although we did not expand our procedures to determine the exact cause for each late
payment, we identified one instance where the field site did not send the agreement to
the San Mateo IT/ASC timely. Specifically, the San Mateo IT/ASC received the local
agreement 30 days after the contract began. Also, in three instances, CMC personnel
did not enter newly created contract information timely to CAMS, and in eight instances
the San Mateo IT/ASC did not receive contract renewal information from the CMCs
timely. Note, however, we did not determine the exact timeframes the CMCs received
contract information from the field sites.

When payments are not made timely, there is increased risk that contractors may not be
willing to contract with the Postal Service in the future, may not provide timely or
adequate work, or may refuse to perform work.

In order to mitigate late entry of local agreement contract information into APEX, in
January 2007, the San Mateo IT/ASC began sending reminder letters to the field sites
90 days prior to the expiration of the recurring services contracts. Further, as a result of

26
     Management Instruction FM-610-2000-2.




                                                 17
Fiscal Year 2007 Postal Service Financial Statements Audit –          FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center


our report titled Application Control Review of Oracle Accounts Payable – Feeder
Systems,27 management agreed to establish procedures to reissue old contracts in
CAMS with new contract award numbers at the time of renewal, modification or change.
This will ensure contract information interfaces with APEX for payment.




27
     Report Number IS-AR-07-014(R), dated August 9, 2007.




                                                       18
Fiscal Year 2007 Postal Service Financial Statements Audit –                   FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center


     APPENDIX F: SUMMARY OF MONETARY AND NON-MONETARY IMPACT



                                     MONETARY IMPACT
             Description                   Amount                        Category
eIWS Processing Control:
  Actual net overpayments                             $50,024 Recoverable Questioned Costs
  Projected net overpayments                           32,850 Funds Put to Better Use
Total Monetary Impact                                 $82,874


                             NON-MONETARY IMPACT
             Description              Amount               Category
eIWS Processing Control:
  Invoices with discrepancies that   $1,053,609 Assets at Risk
  were paid correctly

Managing Accounts Receivable
  Receivables over 30 days old that                    81,614 Assets at Risk
  were not reviewed
Total Non-Monetary Impact                       $1,135,223




                                                 19
Fiscal Year 2007 Postal Service Financial Statements Audit –      FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center


                      APPENDIX G: MANAGEMENT’S COMMENTS




                                                 20
Fiscal Year 2007 Postal Service Financial Statements Audit –      FT-AR-08-009
 San Mateo Information Technology and Accounting Service Center




                                                 21
